                                                    NA TIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-10060024                                                                        Page 1 of 1



         This case was opened upon receiving a request from another Federal agencyi for a copy of an .
         NSF proposal2 submitted by a PI3 at a university4. The other Federal agency requested the
         proposal as a part of an ongoing conflict of interest investigation. The PI was employed by a
         Federal agency5 at the time he submitted proposals to NSF and the other Federal agency in
         violation of 18 U.S.C. 208.

          The other Federal agency presented the case to an AUSA, who declined to prosecute.

         In light of the above, no further investigative effort is necessary in this matter .

        . Accordingly, this case is closed.




NSF OIG Form 2 (11102) .
